<html>
<title> - AFFIRMING AND RECOGNIZING THE KHMER, LAOTIAN, HMONG, AND MONTAGNARD FREEDOM FIGHTERS AND THE PEOPLE OF CAMBODIA; RECOGNIZING THE IMPORTANCE OF THE UNITED STATES-REPUBLIC OF KOREA-JAPAN TRILATERAL RELATIONSHIP TO COUNTER NORTH KOREAN THREATS AND NUCLEAR PROLIFERATION, AND TO ENSURE REGIONAL SECURITY AND HUMAN RIGHTS; SUPPORTING HUMAN RIGHTS, DEMOCRACY, AND THE RULE OF LAW IN CAMBODIA; AND DPRK ACT OF 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





  AFFIRMING AND RECOGNIZING THE KHMER, LAOTIAN, HMONG, AND MONTAGNARD 
FREEDOM FIGHTERS AND THE PEOPLE OF CAMBODIA; RECOGNIZING THE IMPORTANCE 
OF THE UNITED STATES-REPUBLIC OF KOREA-JAPAN TRILATERAL RELATIONSHIP TO 
 COUNTER NORTH KOREAN THREATS AND NUCLEAR PROLIFERATION, AND TO ENSURE 
REGIONAL SECURITY AND HUMAN RIGHTS; SUPPORTING HUMAN RIGHTS, DEMOCRACY, 
         AND THE RULE OF LAW IN CAMBODIA; AND DPRK ACT OF 2016

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

          H. Res. 210, H. Res. 634, H. Res. 728 and H.R. 4501

                               __________

                              JULY 6, 2016

                               __________

                           Serial No. 114-177

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-695PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                       
                       
                       
                       
  
  
  
  
  
  
  
  
  
  
                       

                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 210, Affirming and recognizing the Khmer, Laotian, Hmong, 
  and Montagnard Freedom Fighters and the people of Cambodia and 
  Laos for their support and defense of the United States Armed 
  Forces and freedom in Southeast Asia...........................     2
  Amendment in the nature of a substitute to H. Res. 210 offered 
    by the Honorable Matt Salmon, a Representative in Congress 
    from the State of Arizona, and chairman, Subcommittee on Asia 
    and the Pacific..............................................     5
H. Res. 634, Recognizing the importance of the United States-
  Republic of Korea-Japan trilateral relationship to counter 
  North Korean threats and nuclear proliferation, and to ensure 
  regional security and human rights.............................     7
  Amendment in the nature of a substitute to H. Res. 634 offered 
    by the Honorable Matt Salmon.................................    11
H. Res. 728, Supporting human rights, democracy, and the rule of 
  law in Cambodia................................................    15
  Amendment to H. Res. 728 offered by the Honorable Brad Sherman, 
    a Representative in Congress from the State of California....    20
H.R. 4501, To amend the North Korean Human Rights Act of 2004 to 
  authorize further actions to promote freedom of information and 
  democracy in North Korea, and for other purposes...............    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    32
Markup minutes...................................................    33
Markup summary...................................................    34
 
  AFFIRMING AND RECOGNIZING THE KHMER, LAOTIAN, HMONG, AND MONTAGNARD 
FREEDOM FIGHTERS AND THE PEOPLE OF CAMBODIA; RECOGNIZING THE IMPORTANCE 
OF THE UNITED STATES-REPUBLIC OF KOREA-JAPAN TRILATERAL RELATIONSHIP TO 
 COUNTER NORTH KOREAN THREATS AND NUCLEAR PROLIFERATION, AND TO ENSURE 
REGIONAL SECURITY AND HUMAN RIGHTS; SUPPORTING HUMAN RIGHTS, DEMOCRACY, 
         AND THE RULE OF LAW IN CAMBODIA; AND DPRK ACT OF 2016

                              ----------                              


                        WEDNESDAY, JULY 6, 2016

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. The subcommittee will come to order. We meet 
today pursuant to notice to mark up four bipartisan measures. 
As your offices have been notified, it is the intent of the 
Chair to consider en bloc the following items, which were 
previously provided to members and are in your folders: House 
Resolution 210, Affirming and recognizing Khmer, Laotian, 
Hmong, and Montagnard Freedom Fighters and the people of 
Cambodia and Laos for their support and defense of the United 
States Armed Forces and freedom in Southeast Asia; included in 
that is Salmon amendment 148 in the nature of a substitute to 
H. Res. 210; House Resolution 634, Recognizing the importance 
of the United States-Republic of Korea-Japan trilateral 
relationship to counter North Korean threats and nuclear 
proliferation, and to ensure regional security and human 
rights; Salmon amendment 146 in the nature of a substitute to 
H. Res. 634; House Resolution 728, Supporting human rights, 
democracy, and the rule of law in Cambodia; Sherman amendment 
42 to H. Res. 728; and H.R. 4501, the Distribution and 
Promotion of Rights and Knowledge Act of 2016.
    Without objection, these items are considered as read and 
will be considered en bloc.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Salmon. And I will now recognize members to speak on 
these items, beginning with myself and the ranking member.
    I would like to speak in support of each of the measures 
our subcommittee will be marking up today. First, House 
Resolution 210, legislation introduced by Mr. Duffy of 
Wisconsin, recognizes the people of Cambodia and Laos for their 
support of the United States Armed Forces in Southeast Asia. 
Many ethnic groups in Cambodia and Laos fought with the United 
States Armed Forces, aided in rescue efforts, assisted with 
intelligence gathering, and provided food and shelter to our 
troops during the Vietnam war era. These acts are truly 
commendable. And this resolution seeks to recognize their 
important contributions in our shared history. I worked with 
Mr. Duffy in creating an amendment in the nature of a 
substitute and submit that today to clarify some of the 
language in the bill.
    The next item is House Resolution 634, a bill I introduced 
to recognize the strategic and security importance of the 
United States-Republic of Korea-Japan trilateral relationship. 
North Korea continues its provocations, test firing two 
ballistic missiles just a couple of weeks ago. North Korea's 
boldfaced rejection of international norms and multiple U.N. 
resolutions is manifestly threatening the safety of the 
neighborhood and our close allies Japan and Republic of Korea, 
proving the administration's strategy of strategic patience is 
not working. As a result, we must work proactively with our 
allies to counter North Korean threats and nuclear ambitions.
    The Korean-Japan relationship has come a long way. And our 
three nations are now working closely together to confront the 
threat of a nuclear North Korea. These closer ties will 
ultimately foster increased security and ultimately improve the 
lives of all those on the peninsula and in the region.
    We can have no other expectation than that North Korea will 
continue its provocations. And we must stand firm with our 
allies and partner with them to deploy an antimissile system 
that will protect their communities.
    This resolution puts forth congressional intent to bolster 
the trilateral relationship and offer support for regional 
ballistic missile defense systems and provides viable stability 
to the region.
    Next, House Resolution 728, introduced by our Foreign 
Affairs colleague Mr. Lowenthal, seeks to support human rights, 
democracy, and the rule of law in Cambodia. I was proud to be 
the lead cosponsor with him on this legislation to support 
democracy and human rights in Cambodia. I am deeply concerned 
by the ongoing harassment of opposition politicians and growing 
restrictions on civil society and the press. The opposition 
leader remains in exile under the threat of arrest. And his 
deputy faces ostensibly politically motivated charges as well. 
There is much that must be done in Cambodia to ensure fair and 
free elections next year. This legislation will help facilitate 
the necessary changes.
    Our last item is H.R. 4501, the Distribution and Promotion 
of Rights and Knowledge Act of 2016, which I was pleased to 
introduce in partnership with Ranking Member Sherman. When 
looking at the mess that is North Korea, we largely have two 
means to improve security in the region, and the lives of those 
within the hermit kingdom. First, under Chairman Royce's 
leadership, Congress has already imposed new sanctions to 
squeeze off funding mechanisms in an effort to reduce the means 
to proliferate nuclear weapons. Second, we need to provide 
information to the people of North Korea to empower them from 
the inside, to reduce Kim Jong-un's influence and power.
    North Korean leadership maintains a stranglehold on 
information. It not only provides propaganda to preserve its 
power. In 2008, under the North Korean Human Rights Act, 
Congress authorized radio information flow into North Korea to 
educate and free the minds of the people. Technology and times 
have changed, and the programs we fund are in need of upgrades 
as well. This bill will improve content and listenership to 
empower the people of North Korea with information about the 
outside world and basic human rights by allowing distribution 
of devices as well as content within North Korea. These much-
needed updates to the program will go a long way to undermine 
the regime's oppressive governance in North Korea.
    All these bills are solid bipartisan measures, and I urge 
my colleagues to support them as introduced or corrected by way 
of amendment in the nature of a substitute.
    And I would like to recognize Mr. Sherman for any comments 
that he might have.
    Mr. Sherman. Thank you. I want to thank the chairman for 
holding this markup. I support each of the four bills we are 
considering.
    H. Res. 210, affirming and recognizing the Khmer, Laotian, 
Hmong, and Montagnard Freedom Fighters and the people of 
Cambodia and Laos for their support and defense of the United 
States Armed Forces and freedom in Southeast Asia. It is 
entirely appropriate that we recognize these brave allies who 
fought alongside us.
    Supporting human rights, democracy, and the rule of law in 
Cambodia, H. Res. 728. I want to thank my colleague from 
southern California, Mr. Lowenthal, for his leadership on this 
resolution and his general leadership on human rights in 
Southeast Asia. I met just last week with opposition leader Sam 
Rainsy, who is in exile because the government of Hun Sen has 
abused the criminal defamation law to try to silence him. You 
can't have a democracy when you have a criminal defamation law, 
probably of any kind, but certainly a criminal defamation law 
that is used to silence and criminalize political speech. That 
is why I offered my amendment that would call specifically on 
Cambodia to reform its defamation law and hopefully not apply 
it to any political speech and not provide criminal penalties 
for so-called defamatory statements. And we want to make it 
explicit that Congress takes these issues extremely seriously.
    We all buy garments. Some of them are made in Cambodia. 
Cambodian garment manufacturers and U.S. importers have got to 
understand that the American people want to see improvements in 
human rights in Cambodia.
    H. Res. 634, Recognizing the importance of the United 
States-Republic of Korea-Japan trilateral relationship to 
counter North Korean threats and nuclear proliferation, and to 
ensure regional security and human rights. The North Korea 
regime of Kim Jong-un is a great danger to international 
security. The Kim regime continues to work toward developing 
missiles and nuclear weapons. It is now trying to lengthen the 
reach of those missiles with the sole purpose of reaching the 
United States.
    I am also concerned about North Korea perhaps selling 
nuclear weapons to Iran or others. And, of course, Iran now has 
many, many tens of billions of dollars that it did not have at 
the beginning of last year.
    The guiding principle of the United States' policies in 
North Korea should be to exert every effort to pressure the 
regime in order to incentivize change. So this resolution 
encouraging cooperation with South Korea and Japan makes 
senses. I fully support the resolution.
    Moving on to H.R. 4501, Distribution and Promotion of 
Rights and Knowledge Act of 2016. Pleased to join our chairman 
in introducing this resolution. It calls for a more assertive 
U.S. approach in trying to get independent information to the 
people of North Korea using electronic media in various forms 
as well as improving our broadcasting efforts. I want to thank 
the chairman for moving this important bill.
    Beyond economic sanctions, short of the use of military 
force, one of the most effective things we can do is provide 
the people of North Korea with information, which this 
murderous regime seeks to deny them. This is one of the most 
effective things the international community can do to pressure 
the regime and hopefully move forward to a day when we can have 
a government in North Korea that is at peace with the world and 
at peace with its own people.
    Information from independent sources has consistently been 
a destabilizing influence on totalitarian regimes, which 
accounts for why they go to such extreme ends to prevent that 
information from reaching it citizens. The United States should 
increase its efforts in this regard, increasing current VOA 
broadcasting into North Korea and supplementing this 
broadcasting with social media. We must adopt our diplomatic 
efforts to spread the American message according to the new 
technology of these times.
    I am pleased to see the committee more forward in a 
bipartisan fashion, which of course has characterized its work.
    And I yield back 1 second of time.
    Mr. Salmon. I thank the ranking member.
    The Chair recognizes Mr. Rohrabacher.
    Mr. Rohrabacher. I rise in support of all four of these 
resolutions, but in particular, I would like to thank you, Mr. 
Chairman, for your leadership and H. Res. 210, which 
underscores the important role played by Khmer, Laotian, Hmong, 
and Montagnards during the Vietnam war.
    Now, while not in the actual military, I found myself in 
the Central Highlands in Vietnam in 1967. And I was working 
with a Montagnard tribesman, who I would--the people who you 
could trust with your life were Montagnard tribesmen. And at 
that time, there were some troubles with relying on our allies 
in the South Vietnamese Army, but these tribal people, the 
Montagnards--and by the way, ``Montagnards'' means mountain 
people, and ``Hmong'' and ``Laotian'' mean mountain people. And 
what we are really talking about is an ancient separation of 
various peoples of that region between mountain people and 
valley people. And the Montagnards were very unsophisticated 
but most courageous. And they were short and small in stature, 
but just overwhelming in courage and honor with their word. So 
it is good that we are honoring them today because they saved a 
lot of American lives. And I witnessed that firsthand.
    And, number two, I would like to thank Mr. Lowenthal for 
his H. Res. 728. Mr. Lowenthal has, as I did when I represented 
his district, which he represents now, a large Cambodian 
population of Cambodian-Americans, and the Cambodian-Americans 
have come here to be free, but they look back at their 
homeland, and after all these years when the Vietnam war is 
behind us, Cambodia is still run by the same tough guy, a 
corrupt regime that has been in power for over 30 years.
    Let me just note, in a historical note, one reason why this 
is an important resolution for us is that the United States 
Government convinced Hun Sen, the tough guy who was put into 
power by a Vietnamese military, they convinced him that he 
should actually have a free and fair election. And he had it. 
And there were 20,000 United Nations troops that were permitted 
into Cambodia for that election. This must have been about the 
middle 1990s. And Hun Sen lost that election. It was very--he 
lost the election. And he was--but the American Ambassador at 
the time felt that Hun Sen would not give up power and that if 
we tried to force it, that he would--there would be bloodshed, 
et cetera. And we backed down. And there was a compromise. They 
would have two Prime Ministers and two Presidents. That bit of 
a lack of willingness to stand up has condemned the people of 
Cambodia all of these years to live under a tyrannical and 
corrupt regime.
    And this resolution should remind us that the people of 
Cambodia are still suffering, and we should not leave them out 
of the equation when we are trying to decide where we are going 
to take a stand because it was our Ambassador who made the 
wrong decision that has condemned them all of these years. So 
what this resolution should be called is ``Mr. Hun Sen, it is 
time to go.'' And as we pass this resolution, I hope that 
message will be delivered to Hun Sen: It is time for you to go, 
Hun Sen. It is time for the people of Cambodia to have their 
freedom and to cast off this corrupt regime that steals their 
property and enriches a small clique of Hun Sen cronies.
    So, with that said, I will be supporting of the resolutions 
but especially those two.
    Mr. Salmon. I thank the gentleman.
    The Chair recognizes Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chairman.
    And I would like to thank you, Mr. Chairman, for bringing 
up my resolution, H. Res. 728, which supports human rights, 
democracy, and the rule of law in Cambodia.
    And I would also like to thank you, Mr. Chair, for 
introducing this bill as the first sponsor, along with myself, 
along with Chairman Royce as a cosponsor, and Ranking Member 
Engel as a cosponsor. Congressman Chabot is also an original 
cosponsor. Together, Congressman Chabot and myself founded the 
Congressional Cambodia Caucus earlier this year to shine a 
light on these issues.
    As has been pointed out so well by Congressman Rohrabacher, 
who I thank you for your comments, and also by the chair, 
Cambodia is a nation with enormous potential, home to a large 
youth population that strives to have their voices heard and 
their concerns listened to. However, for over 30 years, 
Cambodia has been ruled by the same ruling party and its 
leader, Prime Minister Hun Sen. Despite political violence and 
election irregularities, which were sanctioned by Hun Sen and 
his Cambodian People's Party, the opposition has continued to 
grow in support and will contest, first, local elections in 
2017 and national elections in 2018. Last year, the Cambodian 
Government revived the 7-year-old defamation charges against 
opposition leader Sam Rainsy, expelling him from the 
Parliament, forcing him into self-imposed exile. That is not 
enough. Since then, the government has sought to arrest Kem 
Sokha, the deputy to Sam Rainsy and the deputy opposition 
leader, who now remains under house arrest, effective house 
arrest.
    This deteriorating political situation in Cambodia demands 
action from the United States. That is why it is so important 
that we pass this resolution and show that Congress stands with 
the people of Cambodia and reaffirms our commitment to 
democracy, human rights, and the rule of law in Cambodia. 
Through this resolution, we call on the Government of Cambodia 
to, one, cease all harassment and intimidation of the Cambodian 
opposition; drop all politically motivated charges against 
opposition law makers; allow them to return to Cambodia and 
freely participate in the political process; and we ask the 
Government of Cambodia to foster an environment where democracy 
can thrive and flourish.
    Lastly, I would like to thank Congressman Sherman for 
working with us to offer his amendment strengthening the 
resolution. This amendment adds a clause calling for reform of 
criminal defamation laws of the sort which are now being used 
to prosecute Cambodian opposition leaders, laws that are 
fundamentally antidemocratic.
    Again, I urge my colleagues to support this resolution, and 
I thank you again, Mr. Chairman, and I yield back.
    Mr. Salmon. Thank you.
    Do any other members seek recognition to speak on any of 
these items?
    If not, then we will go ahead and proceed. Then we will be 
voting on adopting the items under consideration en bloc.
    All those in favor, say aye.
    Opposed, say no.
    In the opinion of the Chair, the ayes have it, and the en 
bloc items are approved.
    Without objection, H. Res. 210, H. Res. 634, H. Res. 728, 
and H.R. 4501, as amended, will be reported favorably to the 
full committee, and the staff is directed to make any technical 
and conforming changes.
    And I would like to thank all the members and staff for the 
assistance and cooperation that went into today's markup.
    And the subcommittee stands adjourned.
    [Whereupon, at 2:23 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
